         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over the
Department's Excess Weapons
Inventories and Selected Sensitive
Equipment used by Protective
Forces




OAS-M-09-01                            January 2009
                                Department of Energy
                                     Washington, DC 20585

                                      January 22, 2009



 MEMORANDUM FOR THE DIRECTOR, OFFICE OF MANAGEMENT
                ASSOCIATE ADMINISTRATOR, OFFICE OF MANAGEMENT


 FROM:
                       aNDa
                         MINISTRATION, NNSA

                          ~YckebRI Hass
                          Deputy Inspector General
                            for Audit Services
                          Office of Inspector General

 SUBJECT:                INFORMATION: Audit Report on "Management Controls over
                         the Department's Excess Weapons Inventories and Selected
                         Sensitive Equipment used by Protective Forces"

BACKGROUND

Since September 11,200 1, the Department of Energy has, on several occasions, revised
its security posture based on identified threats and adversaries. These revisions in
security posture have driven Departmental sites to upgrade their defensive and tactical
equipment. Subsequent changes in the perceived threats have, in some cases, led to a
reduction in the need for certain types of weapons, thus creating a pool of surplus
equipment. These surplus weapons could potentially be used by other Department sites
and Federal law enforcement agencies.

Recent Office of Inspector General reports have raised concerns with the adequacy of
controls related to defensive and tactical equipment. For example, our report on
Adai~agernentControls Over Defense Related High Risk Property (OAS-M-08-06, April
2008) found that administrative controls over certain defense related high risk property
were not sufficient for providing accountability over these items. Because of prior
reported weaknesses in controls over defensive and tactical equipment, we initiated this
audit to determine whether the Department and its contractors were properly managing
excess weapons inventories and selected sensitive equipment used by protective forces.

RESULTS OF AUDIT

Our review disclosed that the Department was not always properly managing its
inventories of excess weapons and selected sensitive equipment. We identified issues
with the retention of unneeded weapons at many locations and with the identification and
tracking of sensitive items. More specifically:

       Sites maintained large inventories of weapons that were no longer needed but had
       not been made available for use by either other Departmental sites or other
       Federal law enforcement agencies. For instance, at six of the locations included



                                @                   d soy ink un recycled paper
                                      P r ~ r ~ t ewilh
         in our review we identified a total of 2,635 unneeded weapons with a total
         acquisition value of over $2.8 million that had not been officially declared as
         excess - an action that would have made them available for others to use. In
         addition;

         Sites were not always identifying, tracking and properly disposing of potentially
         high risk and sensitive equipment. In particular, we identified control weaknesses
         in this area related to weapons sights and scopes.

These issues occurred because the Department did not have processes in place to properly
manage excess inventories of weapons. In particular, the Department does not have
requirements for ensuring timely declaration of excess weapons. Additionally, certain
sites indicated that they were unwilling to give up excess weapons because of the
possibility that they may be needed in the future. However, other sites had a need for
some of these weapons and could have avoided purchasing them had they been made
available through the excess screening process. Also, we found that the Department
lacks clear guidance on the identification of high risusensitive equipment.

Except for immaterial differences, we were able to locate and verify accountability over
the items of defensive and tactical equipment we selected for review. Specifically, we
took statistical samples of weapons, ammunition, and other related equipment and were
able to verify their existence. While these accountability measures were noteworthy,
additional action is necessary to strengthen controls over weapon and sensitive equipment
management. Untimely declaration of excess weapons may result in an inefficient use of
scarce Government resources. Similarly, if selected high risusensitive equipment is not
properly categorized and tracked, accountability issues may occur. To address these
issues, we made recommendations aimed at improving the management of these
categories of defensive and tactical equipment.

MANAGEMENT REACTION

National Nuclear Security Administration (NNSA) and Department management
generally concurred with the recommendations. Actions taken or planned by
management are responsive to our recommendations. Management comments are more
fully discussed in the body of the report and are included in their entirety in Appendix 3.

Attachment

cc:   Administrator, National Nuclear Security Administration
      Acting Under Secretary of Energy
      Acting Under Secretary for Science
      Chief of Staff
      Acting Assistant Secretary for Environmental Management
      Acting Assistant Secretary for Nuclear Energy
REPORT ON MANAGEMENT CONTROLS OVER THE
DEPARTMENT'S EXCESS WEAPONS INVENTORIES AND
SELECTED SENSITIVE EQUIPMENT USED BY PROTECTIVE
FORCES

TABLE OF
CONTENTS

Excess Weapons Inventories & Selected Sensitive Equipment

Details of Finding…………………………………………………………………..1

Recommendations and Comments…………………………………………………5


Appendices

1. Objective, Scope, and Methodology……………………………………………7

2. Prior Reports……………………………………………………………………10

3. Management Comments………………………………………………………..11
MANAGEMENT OF EXCESS WEAPONS INVENTORIES AND
SELECTED HIGH RISK/SENSITIVE EQUIPMENT

Unneeded Weapons      The Department of Energy (Department) was not always
and Identification    properly managing its excess weapons inventories and
of Equipment          and selected high risk/sensitive equipment used by
                      protective forces. Specifically, our testing revealed large
                      inventories of weapons that were no longer needed at
                      various locations. These weapons could potentially be used
                      by either other Department sites or other Federal law
                      enforcement agencies. In addition, we noted control
                      weaknesses related to the identification and disposition of
                      potentially high risk/sensitive defensive and tactical
                      equipment.

                                          Unneeded Weapons

                      During our review, we identified a number of locations that
                      retained large inventories of unneeded weapons. Retention
                      of weapons that are in excess of needs is contrary to
                      Department property management directives which require
                      that excess property be made available to other Department
                      sites or other Federal law enforcement agencies. The
                      majority of these weapons were reported as being in good
                      working order and had only recently been identified by
                      security officials as unneeded even though some of them
                      had been in storage for up to 15 years. However, at the
                      time of our review, these weapons had not been made
                      available for others through the Department's excess
                      property screening process.

                      Changes in security strategies led to stockpiles of unneeded
                      weapons that had not been made available to other
                      locations. For example, Hanford Site (Hanford) officials
                      stated that the site was required to upgrade its security
                      posture based on the 2005 Design Basis Threat
                      requirements. As such, it purchased additional weapons
                      and ammunition at a cost of almost $1.6 million and
                      acquired numerous weapons from other sites. However, in
                      April 2006, a decision was made to return the site to its
                      previous security level. This decision left the site with a
                      stockpile of weapons and ammunition that were no longer
                      needed. At the time of our site visit, the additional
                      weapons and associated ammunition had been stored and
                      unused for periods of up to two and a half years.

                      In a similar instance in September 2006, the Office of
                      Secure Transportation (OST) purchased weapons and
                      associated ammunition at a cost of over $890,000 to meet

________________________________________________________________
Page 1                                            Details of Finding
                      its security strategy. However, less than a year later, a
                      decision was made to change the methodology of how the
                      organization would meet its security needs – a decision that
                      made these newly acquired weapons unnecessary. At the
                      time of our review, neither Hanford nor OST had made
                      these unneeded weapons available to other Department or
                      Federal organizations through the excess process. After
                      completion of our audit fieldwork, however, OST told us
                      that it had formally declared its weapons as excess.

                      As of June 1, 2008, the following Department locations
                      maintained large inventories of unneeded weapons:

                                         Weapons Awaiting Screening

                         Locations       Number    Acquisition Value     Length of      Identified as
                                            of        (rounded)           Time in        Unneeded
                                         Weapons                          Storage         (approx)
                       National            860              $519,000    Up to 8 years   Up to 8 years
                       Training Center
                       Hanford Site        730              $866,000     Up to 2-1/2    Over 2 years
                                                                            years
                       Nevada Test         320              $172,000    Up to 2 years     4 months
                       Site
                       Lawrence            286              $196,000     2 – 8 years      6 months
                       Livermore
                       National
                       Laboratory
                       Office of           255              $779,000    Over 1 year        1 year
                       Secure
                       Transportation
                       Sandia National     184              $337,000      Up to 15        3 months
                       Laboratory –                                        years
                       New Mexico
                                 Total    2,635            $2,869,000


                      We also identified an additional 539 unneeded weapons at
                      two sites – which had been in storage from 5 to 15 years –
                      however, acquisition values were not available. Some of
                      these weapons have had little or no use. Even though the
                      weapons cited above could potentially be used by others,
                      sites had not made these unneeded weapons available by
                      officially declaring them as excess and entering them into
                      the Energy Asset Disposal System at the time of our
                      review.

                                  Identification and Disposal of High Risk/
                                             Sensitive Equipment

                      Our testing also revealed control weaknesses related to the
                      identification of high-risk/sensitive defensive and tactical
                      equipment. Identification of such property is important to
                      maintain accountability and ensure that it is properly

________________________________________________________________
Page 2                                            Details of Finding
                      demilitarized before disposal in accordance with national
                      security demilitarization procedures. In particular, while
                      the Idaho National Laboratory (Idaho) considers certain
                      night vision and thermal imaging equipment as sensitive, it
                      did not consider sights and scopes to be sensitive
                      equipment. Other sites we reviewed identified and
                      controlled similar items as sensitive property. Some sights
                      and scopes at other sites reviewed cost as much as $10,000
                      but, because Idaho does not consider these items to be
                      sensitive, they were not tracked and therefore could be
                      more susceptible to theft and misuse. Given that they were
                      not tracked, we could not determine the number or value of
                      sights and scopes at Idaho.

                      Other recent Office of Inspector General efforts have
                      identified similar issues with the identification of high
                      risk/sensitive property. Specifically, in our report on the
                      Accountability of Sensitive and High Risk Property at the
                      Nevada Site Office (OAS-L-08-08, March 2008) we noted
                      that gas masks and body armor were not properly tracked
                      and disposed of as high risk items. Similarly, another
                      report on the Management Controls over Defense Related
                      High Risk Property (OAS-M-08-06, April 2008) found that
                      sites had not adequately tracked certain sensitive and/or
                      high risk equipment such as firearm barrels, body armor
                      and gas masks.

Property Management   A lack of clear Department guidance contributed to
of Resources          problems with the management of excess weapons and
                      certain sensitive property. The absence of requirements for
                      ensuring timely declaration of excess weapons, coupled
                      with sites' unwillingness to give them up, led to excessive
                      inventories at the sites we reviewed. We also found that
                      the absence of specific guidance regarding the definition of
                      high-risk sensitive property led to variations in tracking and
                      accountability for weapon scopes and sights.

                                          Timely Declaration

                      The Department and its sites did not have policies or
                      procedures in place to address the timeliness of declaring
                      unneeded weapons as excess. The process for disposing of
                      excess weapons begins with the site identifying the weapon
                      as not being needed to meet the site's security strategy.
                      After identification, the site should formally declare the
                      weapon as excess. Once this has been accomplished, the
                      weapon is first made available to other Departmental sites
________________________________________________________________
Page 3                                            Details of Finding
                      and then to other Federal law enforcement agencies for
                      reutilization. During our review, we identified several
                      instances where, although weapons were identified as
                      unneeded by the site, they had not taken the next step to
                      formally declare the weapons as excess.

                      Certain sites indicated that they were reluctant to declare
                      their unneeded weapons as excess despite the fact that they
                      could be used by other Departmental sites or other Federal
                      law enforcement agencies. For example, at the Nevada Site
                      Office, a large number of rifles that were no longer needed
                      were retained just in case they had a future need for the
                      weapons but could not get funding to purchase them. Some
                      of these weapons, however, have not been used for over
                      two years. At Hanford, officials indicated that they did not
                      want to give up good or new weapons in the event that a
                      change in their security strategy could warrant the use of
                      these weapons in the future. They indicated that some
                      weapons can be hard to get and can take up to a year to
                      receive, and therefore, there was a concern that they would
                      not be able to acquire these weapons again, if needed.
                      However, had some of these weapons been made available
                      other Department sites that had recently purchased similar
                      types of weapons could have avoided expending their
                      scarce budgetary resources. For example, OST could have
                      avoided a significant portion of the $890,000 it spent in
                      2006 by acquiring weapons that were in storage at Hanford
                      instead of purchasing them. While we recognize that any
                      strategy is subject to change, retaining valuable unneeded
                      property in anticipation of a future event that may or may
                      not occur is an inefficient use of resources.

                         Accountability over High Risk/Sensitive Equipment

                      The Department lacks adequate guidance regarding the
                      identification of high risk/sensitive property. According to
                      a site official, current Departmental policy does not clearly
                      address what items related to defensive and tactical
                      equipment should be considered high risk or sensitive. As
                      a consequence, the management of scopes and sights varied
                      from site to site. For example, Idaho does not consider rifle
                      sights and scopes as sensitive because contractor property
                      management officials believe that these items are
                      comparable to a calculator based on their acquisition cost.
                      However, we noted that the acquisition costs of these items
                      at other Departmental sites ranged from $200 to almost
                      $10,000, considerably more than a typical calculator.
________________________________________________________________
Page 4                                            Details of Finding
                           Additionally, a Department official at the site who was
                           knowledgeable of the program stated that, in his opinion,
                           these items should be considered sensitive because they
                           make weapons more deadly. Because there are differing
                           opinions between sites as to what should be considered
                           sensitive, additional guidance is needed.

Use and Accountability Untimely declaration of excess weapons may result in
Of Government          an inefficient use of Government resources. By not making
Resources              unneeded weapons available to other Department sites or
                       Federal law enforcement agencies in a timely manner, these
                       weapons may become outdated and are not being re-
                       utilized. Given the current pool of excess and unneeded
                       weapons, it is possible that millions of taxpayer dollars
                       could be saved by other sites or agencies acquiring this
                       excess property rather than purchasing new weapons. In
                       addition, while these weapons are in storage, the sites may
                       continue to incur costs to inventory and secure these
                       weapons. Similarly, if high risk/sensitive defensive and
                       tactical equipment is not properly identified and tracked,
                       accountability issues may be created.

RECOMMENDATIONS            To address the weaknesses identified in our report, we
                           recommend that the Director, Office of Management and
                           the Senior Procurement Executive, National Nuclear
                           Security Administration (NNSA) take the following
                           actions:

                                1. Develop policies/procedures outlining timelines
                                   for declaring equipment as excess and making
                                   them available to other Department sites or
                                   Federal law enforcement agencies; and,

                                2. Develop improved guidance over the
                                   identification of high risk/sensitive property
                                   related to defensive and tactical equipment.

MANAGEMENT                 Department and NNSA management generally concurred with
REACTION AND               our recommendations. Department management identified
AUDITOR COMMENTS           corrective actions it planned to complete, including the
                           immediate issuance of a Personal Property Letter (PPL)
                           stating that unneeded assets should be put into the Energy
                           Asset Disposal System as soon as possible but no later than
                           60 days from the date they are determined to be unneeded.
                           Additionally, the PPL will require all property managers to
                           ensure that guidance is followed when identifying and
                           managing assets as high risk/sensitive property, to include
________________________________________________________________
Page 5                              Recommendations and Comments
                     tactical and defensive equipment. While NNSA generally
                     concurred with our recommendations, it asserted that
                     internal screenings are being performed and contractors are
                     required to declare excess weapons. NNSA also noted that
                     they will continue to develop new, or refine existing
                     guidance related to the identification of high risk/sensitive
                     property and will work with non-NNSA elements to refine
                     the definitions of high risk/sensitive property.

                     We consider management's comments and planned actions
                     to be responsive to our recommendations. With respect to
                     NNSA's assertion that internal screening and declarations
                     of excess are already being made, the examples we cited in
                     our report include instances where NNSA weapons had
                     been in storage for extended periods without being
                     identified as unneeded by the site. Declaration of weapons
                     as excess can only take place after they have been
                     identified as unneeded.

                     We included the full text of management's and NNSA's
                     comments in Appendix 3.




________________________________________________________________
Page 6                              Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy
                      (Department) and its contractors were properly managing
                      excess weapons inventories and selected sensitive
                      equipment used by protective forces.

SCOPE                 We conducted the audit from December 2007 to September
                      2008 at Department Headquarters in Washington, D.C.; the
                      Hanford Site (Hanford) in Richland, WA; the Idaho
                      National Laboratory (Idaho) and the Naval Reactors
                      Facility (NRF) in Idaho Falls, ID; the Nevada Test Site
                      (Nevada) in Nye County, NV; and the Tonopah Test Range
                      (TTR) in Tonopah, NV.

                      In addition, we collected information for the following
                      sites:

                         •   National Training Center in Albuquerque, NM;

                         •   Pantex Plant in Carson County, TX;

                         •   Sandia National Laboratories in Albuquerque, NM
                             and Livermore, CA;

                         •   Los Alamos National Laboratory in Los Alamos,
                             NM;

                         •   Y-12 National Security Complex in Oak Ridge, TN;

                         •   Oak Ridge National Laboratory in Oak Ridge, TN;

                         •   Savannah River Site in Aiken, SC;

                         •   Lawrence Livermore National Laboratory in
                             Livermore, CA;

                         •   Kansas City Plant in Kansas City, MO;

                         •   Strategic Petroleum Reserve Project Office in New
                             Orleans, LA;

                         •   Office of Secure Transportation in Albuquerque,
                             NM;

                         •   Brookhaven National Laboratory in Upton, NY;



________________________________________________________________
Page 7                             Objective, Scope, and Methodology
Appendix 1 (continued)

                              •   Paducah Gaseous Diffusion Plant in Paducah, KY;
                                  and,

                              •   Portsmouth Gaseous Diffusion Plant in Piketon,
                                  OH.

METHODOLOGY                To accomplish our objective, we:

                              •   Reviewed applicable Federal regulations,
                                  Department Orders and Manuals, and other
                                  guidance related to the controls over all protective
                                  force equipment (current and excess);

                              •   Reviewed documents such as protective force
                                  equipment inventories and general, special, and post
                                  orders to determine the types of equipment
                                  available and where they are normally located;

                              •   Selected a statistical sample of defensive and
                                  tactical equipment at Hanford, Idaho, and Nevada;

                              •   Selected a non statistical sample of defensive and
                                  tactical equipment at the NRF and the TTR;

                              •   Observed the types, numbers, and locations of
                                  individually assigned and post/auxiliary equipment
                                  during all inspection activities, such as post visits
                                  and tours;

                              •   Held discussions with officials from Hanford,
                                  Idaho, NRF, Nevada, and TTR regarding
                                  management of protective force equipment; and,

                              •   Held discussions with Headquarters officials
                                  regarding property management of defensive and
                                  tactical equipment and programmatic
                                  responsibilities.

                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to
                      obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our findings and conclusions based on
                      our audit objectives. We believe that the evidence obtained
                      provides a reasonable basis for our findings and
                      conclusions based on our audit objectives. Accordingly,
                      the audit included reviews of Department and regulatory
________________________________________________________________
Page 8                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                      policies, procedures, and performance measures related to
                      the Department's management of defensive and tactical
                      equipment. We assessed performance measures in
                      accordance with the Government Performance and Results
                      Act of 1993 and concluded that the Department had not
                      established performance measures related to management
                      of defensive and tactical equipment. Because our review
                      was limited, it would not necessarily have disclosed all
                      internal control deficiencies that may have existed at the
                      time of our audit. We used computer-processed data and
                      performed reliability tests of such data as necessary to
                      achieve our audit objective.

                      Department management and NNSA waived an exit
                      conference.




________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 2

                                      APPENDIX 2

                                   PRIOR REPORTS

•   Management Controls over Defense Related High Risk Property, (OAS-M-08-06,
    April 2008.) This report noted that Los Alamos National Laboratory (Los Alamos)
    and Sandia National Laboratories (Sandia) had effective administrative controls in
    place over the accountability of firearms, including formal inventories, adequate
    documentation, and proper segregation of duties. However, administrative controls
    over other defense related high risk property such as firearm barrels, body armor, and
    gas masks were not sufficient for providing accountability. The report noted that Los
    Alamos and Sandia did not follow or require their subcontractors to follow Federal
    high risk property regulations for their defense related high risk property.

•   Accountability of Sensitive and High Risk Property at the Nevada Site Office, (OAS-
    L-08-08, March 2008). This report found that although the Nevada Site Office
    (Nevada) and its contractors generally adhered to property management regulations,
    some instances of noncompliance existed. Specific to our audit, this report found that
    Wackenhut Services, Inc. had not maintained life cycle accountability or required
    reviews of usability for body armor and gas masks assigned to protective force
    personnel. The report suggested that the Nevada Manager ensure that contractors
    account for high risk property throughout its life cycle.

•   Controls Over Ammunition Within the Office of Secure Transportation, (INS-O-07-
    02, July 2007). This inspection report concluded that the Office of Secure
    Transportation (OST) did not have adequate internal controls over its ammunition.
    Specifically OST did not (1) Categorize and control ammunition as sensitive
    property; (2) Follow requirements for requesting ammunition for activities other than
    organized, approved training and execute required documentation for the issuance
    and receipt of ammunition; (3) Ensure that ammunition transported on board the
    National Nuclear Security Administration aircraft by OST personnel was declared;
    (4) Ensure that ammunition in the possession of Federal agents was properly
    controlled; and, (5) Ensure the accountability of armor piercing ammunition. The
    report noted that OST's inquiries lead to the conclusion that there were systemic
    ammunition accountability problems throughout OST.




________________________________________________________________
Page 10                                              Prior Reports
Appendix 3




________________________________________________________________
Page 11                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 12                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 13                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 14                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 15                                     Management Comments
                                                             IG Report No. OAS-M-09-01

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
